<html>
<title> - MEMBERS' DAY HEARING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                          MEMBERS' DAY HEARING

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 14, 2019

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           Serial No. 116-10

                               __________

      Printed for the use of the Committee on Education and Labor





              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              




           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov

                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
35-664                     WASHINGTON : 2019 























                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director



















                               
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 14, 2019...................................     1

Statement of Members:
    Scott, Hon. Robert C. ``Bobby'', Chairman, Committee on 
      Education and Labor........................................     1
        Prepared statement of....................................     2
    Mitchell, Hon. Paul, a Representative in Congress from the 
      State of Michigan..........................................     3
        Prepared statement of....................................     5
    Smucker, Hon. Lloyd, a Representative in Congress from the 
      State of Pennsylvania......................................     2
        Prepared statement of....................................     3
    Soto, Hon. Darren, a Representative in Congress from the 
      State of Florida...........................................    17
        Prepared statement of....................................    19
    Thompson, Hon. Glenn ``GT'', a Representative in Congress 
      from the State of Pennsylvania.............................    22
        Prepared statement of....................................    26
    Waters, Hon. Maxine, a Representative in Congress from the 
      State of California........................................    29
        Prepared statement of....................................    31

Additional Submissions:
    Espaillat, Hon. Adriano, a Representative in Congress from 
      the State of New York:
        Prepared statement of....................................    36
    Evans, Hon. Dwight, a Representative in Congress from the 
      State of Pennsylvania:
        Prepared statement of....................................    39
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Prepared statement of....................................    41

 
                          MEMBERS' DAY HEARING

                              ----------                              


                        Thursday, March 14, 2019

                        House of Representatives

               Committee on Education and the Workforce,

                            Washington, DC.

                              ----------                              

    The committee met, pursuant to notice, at 9:02 a.m., in 
room 2175, Rayburn House Office Building. Hon. Robert C. 
``Bobby'' Scott (chairman of the committee) presiding.
    Present: Representatives Scott, Takano, Shalala, Thompson, 
Smucker, Comer, and Johnson.
    Staff present: Tylease Alli, Chief Clerk; Nekea Brown, 
Deputy Clerk; Ilana Brunner, General Counsel; Jacque Mosley 
Chevalier, Director of Education Policy; Emma Eatman, Press 
Aide; Mishawn Freeman, Staff Assistant; Alison Hard, 
Professional Staff Member; Carrie Hughes, Director of Health 
and Human Services; Ariel Jona, Staff Assistant; Stephanie 
Lalle, Deputy Communications Director; Andre Lindsay, Staff 
Assistant; Jaria Martin, Staff Assistant; Kevin McDermott, 
Senior Labor Policy Advisor; Richard Miller, Director of Labor 
Policy; Max Moore, Office Aid; Veronique Pluviose, Staff 
Director; Banyon Vassar, Deputy Director of Information 
Technology; Katelyn Walker, Counsel; Joshua Weisz, 
Communications Director; Rachel West, Senior Economic Policy 
Advisor; Courtney Butcher, Minority Coalitions and Members 
Services Coordinator; Amy Raaf Jones, Minority Director of 
Education and Human Resources Policy; Hannah Matesic, Minority 
Legislative Operations Manager; Brandon Renz, Minority Staff 
Director; and Mandy Schaumburg, Minority Chief Counsel and 
Deputy Director of Education Policy.
    Chairman SCOTT. The Committee on Education and Labor will 
come to order. I note that a quorum is present. The committee 
is meeting today for the Members' Day Hearing. This Hearing is 
an opportunity for Members to inform the committee of their 
interests and priorities as it relates to the committee's 
jurisdiction. Members who wish to testify will sit on panels, 
each Member will be given 5 minutes to present his or her 
testimony orally. After Member's presentation, committee 
Members will ask the panelists questions if they wish, under 
the 5 minute rule.
    Pursuant to committee Rule 7C, opening statements are 
limited to the Chair and the Ranking Member, and I recognize 
myself for the purpose of making an opening statement.
    I want to thank everyone for joining us today for the House 
committee on Education and Labor's Members' Day Hearing. 
Today's hearing is an opportunity for the committee to hear 
from all Members of Congress about their priorities for 
addressing our Nation's education system, workforce, healthcare 
system, and economy. Issues within the committee's jurisdiction 
include a wide range of policy areas that impact Americans 
across the country throughout their liveslife, from birth to 
retirement. Accordingly, it is not only appropriate, but 
necessary, to get input and ideas from Members of Congress 
representing all part of this diverse nation.
    Today we have the chance to engage in an open dialog, and 
how we can work in a bipartisan way to protect vital services 
and programs for our Nation's schools, workplaces, health care 
systems, and also improve the quality of life in our 
communities.
    I want to thank all of our Members for being with us today, 
and I look forward to our discussion. I look forward to working 
with all my colleagues to ensure that America's a country where 
everyone can succeed.
    I will now recognize the distinguished Ranking Member, the 
gentleman from Pennsylvania, for the purpose of opening 
statement.
    [The statement by Chairman Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
                    Committee on Education and Labor

    Thank you all for joining us for the House Committee on Education 
and Labor's Members Day Hearing. Today's hearing is an opportunity for 
the Committee to hear from all Members of Congress about their 
priorities for addressing our Nation's education system, work force, 
healthcare system, and economy.
    Issues within the Committee's jurisdiction include a wide range of 
policy areas that impact Americans across the country throughout their 
lives, from birth to retirement.
    Accordingly, it is not only appropriate but necessary to get input 
and ideas from Members of Congress representing all parts of this 
diverse nation.
    Today, we have the chance to engage in an open dialog on how we can 
work in a bipartisan way to protect vital services and programs for our 
Nation's schools, workplaces, and healthcare system, and improve the 
quality of life in our communities.
    Thank you again to all the Members for being with us today. I look 
forward to our discussion and I look forward to working with all my 
colleagues to ensure that America is a country where everyone can 
succeed.
                                 ______
                                 
    Mr. SMUCKER. Thank you, Chairman Scott, thank you for 
yielding. I will be brief in my opening remarks. The whole 
point of it is this is Members' Day, we get the opportunity to 
hear from Members who may not be on the committee.
    But, Mr. Chairman, I know that we agree that this truly is 
one of the best committees in the house, impacting Americans 
from the youngest Americans to the oldest, and everyone in 
between. Our broad jurisdiction can be utilized to improve 
their lives, make their lives better or worse, and of course we 
are always striving for better.
    With issues and policies as diverse as the ones we cover 
here, every hearing has a potential to be a real learning 
experience. And this hearing is a fantastic opportunity to hear 
from colleagues we don't always get to hear from.
    So save more of my thoughts for another day, and simply add 
my welcome to our guests.
    I yield back.
    [The statement by Mr. Smucker follows:]

Prepared Statement of Hon. Lloyd Smucker, a Representative in Congress 
                     from the state of Pennsylvania

    I'll be very brief in my opening remarks because the whole point of 
Members' Day is that we get the opportunity to hear from Members who 
aren't on this Committee.
    Mr. Chairman, I know we are in total agreement that this is truly 
the best Committee in the entire House. From the youngest Americans to 
the oldest and everyone in between, our broad jurisdiction can be 
utilized to make their lives better or worse. Of course, we're always 
striving for better.
    With issues and policies as diverse as the ones we cover here, 
every hearing has the potential to be a real learning experience, and 
this hearing is a fantastic opportunity to hear from colleagues we 
don't always get to hear from.
    So, I'll save more of my thoughts for another day and simply add my 
welcome to our guests.
    I yield back.
                                 ______
                                 
    Chairman SCOTT. Thank you. Without objection, all other 
committee Members who wish to insert written statements for the 
record may do so by submitting them to the committee Clerk 
electronically by March 27th.
    I appreciate all of our witnesses for being with us today, 
and look forward to your testimony. You know how the 
microphones work and what the 5-minute rule means.
    I will now recognize Mr. Mitchell.

 STATEMENT OF HON. PAUL MITCHELL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. MITCHELL. Thank you, Chairman Scott and Ranking Member 
Smucker, and all the Members of the committee. I appreciate the 
opportunity to come today and talk about priorities of your 
committee. And particular for me is priorities for 
reauthorization of the Higher Education Act.
    I have first-hand perspective on the importance of getting 
information to constituents, to families, in terms of the value 
and opportunities in postsecondary education. I spent over 30 
years in postsecondary education as an administrator in a 
variety of roles.
    I also was the first in my extended family to ever go to 
college. The first one to set foot on a college campus. At the 
time it was a guess. I had no idea what the outcome would be 
from going to college, I had a hope. Why? Because such little 
information was available and I admit, it was a number of years 
ago, Mr. Chairman, I am a little older now. But nevertheless, 
when you started asking information about the outcomes, what 
was the likelihood of graduating, what was the career 
opportunities, what could you learn from the degree I pursued. 
All you got was the best anecdotes.
    We are asking people to invest in anecdotes right now 
because they lack information necessary to make informed 
decisions. While right now almost 45 million Americans hold 1.5 
trillion in student debt. They acquired that debt largely by 
guessing and hoping. We have 11.5 percent student loans that 
are 90 days or more delinquent.
    We can hold the higher education system accountable by 
empowering consumers and families to make informed decisions 
about their investment in postsecondary education. These days 
no one would buy a car, a refrigerator, without being able to 
look. Where do you go, you go online and you say OK, what is 
the information on this washer or dryer, what is the 
information on this car, what is its reliability. You can look 
all that up on the Internet, it is an amazing tool.
    Try to find the graduation rate, the employment rate, and 
the earnings for the Nursing Program at Michigan State 
University. I guarantee it is a difference between the 
Architecture Program, the Nursing Program, my alma mater. Try 
to find that information. Yet families are making massive 
investments for their young people in postsecondary education 
and, yes, taking out loans. And then sometimes they're saying 
what do we get for this? Why did we end up in this situation? 
Because they have no idea, they are guessing.
    You are empowered, this committee is empowered to change 
that. To in fact give families and consumers the information 
they need to make informed decisions. And guess what? It is not 
that tricky. Consumers need that information. Policymakers need 
that information because they are making decisions about their 
institutions. And they don't have aggregate information either 
on programs in their institutions.
    And last but not least, let's be honest, employers need a 
talent pipeline where people are informed in terms of the 
decisions they can make.
    Today we propose or we submit the College Transparency Act 
in Congress. It is different from the last bill we had last 
term. I encourage the committee to look at it. We made some 
improvements based upon feedback from committee Members, from 
outsiders, from various stakeholders.
    Last term, and we are still working on co-sponsors this 
year, we had 16 Senators, 33 Representatives, 130 organizations 
that supported the College Transparency Act. I believe we made 
it better.
    Let me quickly talk about what it does. It creates a 
Postsecondary Student Data Advisory committee empowered to 
create a secure data base of the outcomes for students. 
Outcomes being how many students enrolled, how many students 
graduated, how many students graduated within a reasonable 
timeframe, by the way, how many students got employment, and 
what their average earnings were. Largely from data that 
already exists with the Federal Government, but our systems are 
so bad that they can't access that information. And it puts 
that information out in an aggregate data base that will 
require colleges and universities to publish in a searchable 
format.
    The important thing is we create that committee, that 
advisory committee, and we give them 4 years to design this, to 
ensure security, to ensure that information is safe. We don't 
want it, nobody wants that information out there. To make sure 
they do that with the standards in place, and they can update 
those standards.
    Yesterday the Republican Leader spoke before the committee 
of Congress on the importance of looking at block chain and 
other technologies to secure data in the Federal Government. We 
want to get them time to do that. But equally I think we need 
to be focused on, and I would encourage the committee to focus 
postsecondary education upon advising the users, the taxpayers, 
and the consumers, what they are putting their money into. 
Because as I said earlier, there's trillions of dollars 
invested in postsecondary education right now and people in 
many cases aren't informed, and they're not getting their 
money's worth. Let's hold them accountable, let's hold 
postsecondary education accountable by empowering the users 
rather than hope, frankly, the Federal Government gets it right 
and the regulators figure it out. Because I can tell you from 
my 30 some years of experience, they often miss the mark.
    With that I yield back, 11 seconds. Thank you, Mr. Chair.
    [The statement of Mr. Mitchell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman SCOTT. Thank you. And I forgot in your 
introduction, I forgot to mention that you are a former Member 
of this committee, and we miss you.
    Mr. MITCHELL. I miss being here. I had a tough choice to go 
to the House Armed Services, but if you will let me back every 
now and then, I promise to behave myself.
    Chairman SCOTT. Yes, it sounds good. Mr. Soto.

  STATEMENT OF HON. DARREN SOTO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. SOTO. Thank you, Chairman Scott, Ranking Member 
Smucker, and Members of the committee, for this opportunity. I 
would like to talk about H.R. 827, the Artificial Intelligence 
Jobs Act, otherwise known as the AI JOBS Act. This bill would 
authorize the Department of Labor to create a report analyzing 
the future growth of artificial intelligence and its impacts on 
the work force.
    I want to first start out by thanking our co-sponsors, 
Representatives Chris Murphy, Stefanik, Takano, Mitchell, 
Clark, Gallagher, Dingell, Norman, and Khanna. Obviously this 
is a bipartisan bill. We also have innovators in the tax base 
supporting this bill, including Intel, Lyft, the Center for 
Data Innovation, the Software Alliance, and Security Industry 
Association.
    Imagine first if we could go back in time to the late 90's 
or early 2000's and reanalyze how this Congress reacted to 
something called the Internet. It was a huge grower of jobs and 
our economy, but it also had disruptions. And imagine we would 
better prepare ourselves, particularly for workers who were 
displaced, while also promoting the innovation of the Internet.
    And now consider we are at the same juncture with regard to 
artificial intelligence. You think of things like Amazon, who 
have redefined retail in many ways, or Netflix and other movie 
providers and how we are not renting movies in a store anymore 
as much or Spotify or Pandora who people are streaming music. 
Even photos, think about the differences from 20 years ago.
    And then think about the workers who lost those jobs at 
that time and who are looking for a new place in the economy, 
and making sure we are giving them the training and the tools 
they need.
    Since the AI JOBS Act was introduced last Congress, 
President Trump also released an Executive Order ``Accelerating 
America's leadership in artificial intelligence,'' which 
highlighted the paramount economic importance of continued 
American leadership in artificial intelligence. One aspect of 
this Order focused on building the AI work force and directed 
agencies to prepare a work force with the skills needed to 
adapt and thrive in this new age of AI.
    The AI JOBS Act aligns and further this directive by 
commissioning an advisory report within the Department of 
Labor. Specifically, the report would collect data to analyze 
which industries are projected to have the most growth through 
artificial intelligence and the demographics which may 
experience expanded careers and those whose jobs may be most 
vulnerable to displacement.
    To ensure transparency the report will be conducted in a 
non-partisan manner in collaboration with the education 
institutions, employers, and think tanks in the tech and 
manufacturing sectors, and the Secretary of Commerce and the 
Director of Bureau of Census. This bill is also supported by 
the innovators that I talked about.
    I think the key is this could be a template for amendments 
from this committee for other areas in artificial intelligence 
where we may want to be bullish on. This is the future of the 
economy in many sections from healthcare to big data to 
manufacturing. There are so many different applications we may 
not even contemplate at this juncture. But at the same time 
make sure workers in areas that may be disrupted have the tools 
to be equipped. We cannot shirk or draw back from this 
opportunity, but we do and can be more prepared.
    And with that I look forward to questions and yield back, 
Mr. Chairman.
    [The statement of Mr. Soto follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman SCOTT. Thank you. Thank you for your testimony. 
And we will have questions from the panel members. I will 
defer, gentleman from California have questions, the gentlelady 
from Florida, gentlelady from Florida.
    Ms. SHALALA. Thank you very much. Forgive me for my 
questions, but I have been at the other end, at the Cabinet 
Department when we got these kinds of requirements and at 
universities when we got these kinds of requirements.
    So, Congressman Mitchell, I really appreciate and I agree 
with the need for transparency. Parents really need to know, 
even though the students change their majors at least three 
times in the course of their college career, parents do need to 
know, at least when they are entering an institution, what the 
outcomes might be in terms of jobs and other kinds of things.
    It's easy to collect that data for professional schools. 
And that is nursing schools. Because the students take the exam 
and then go right into a job. For arts and sciences majors, 
colleges struggle. And let me tell you why. Because so many of 
them don't take a job initially. They either go to graduate 
school, and for the better colleges, if they do go on to 
graduate school it looks like they have no income, so there has 
to be sensitivity in that. Or they go wandering around 
someplace to take part-time jobs, as you know this new 
generation does. They start with internships and it looks like 
their income is down.
    So while I am not opposed, I actually believe in 
transparency and more information, I simply wanted to point out 
to you that this is pretty complicated for colleges and 
universities.
    Mr. MITCHELL. I would say it is complicated to explain in a 
5-minute opening as well. I would be happy to talk to you about 
it.
    The Advisory committee is envisioned to actually address 
that. For example, to report the percentage of students that go 
on to graduate programs. It is a valid outcome of a 
postsecondary education program. To report the number that are 
employed but elected part-time employment. That data is 
available in various data bases the Federal Government has. The 
problem is it does not aggregate it and doesn't report it, and 
doesn't do so in any safe kind of, any secure kind of manner. 
That's what this envision doing.
    Ms. SHALALA. OK.
    Mr. MITCHELL. And more importantly, let me say just one 
thing, ma'am, which it also allows in making informed 
decisions. For example, I don't care whether someone decides to 
go to Yale in art history and wants to accrue significant debt 
if that's a choice they make on informed decisions. But when 
they make that guess, I think that is a poor use of taxpayer 
money, individual moneys. And I don't mean to pick on Yale, it 
is just an example.
    Ms. SHALALA. You and I would prefer they go to the Big Ten.
    Mr. MITCHELL. I would prefer, Michigan State's a great 
school, yes, it is.
    Ms. SHALALA. Thank you. Congressman Soto, I like, you know, 
your proposal. The problem is I don't think the Labor 
Department has the capacity to actually do it. Are you flexible 
enough to allow them to contract out to maybe one of the think 
tanks to actually coordinate this information in a way in which 
it would be non-partisan? Or the National Academy of Sciences, 
for example, that has issued numerous reports on artificial 
intelligence, or a combination of the two?
    Mr. SOTO. Yes, Congresswoman. And in addition, I would say 
we here in Congress have the ability to provide additional 
resources to the Department of Labor if we wanted to. But, yes, 
I am flexible on this.
    The main point of the bill is for us to get proactive with 
regard to where we could boost growth in AI while still doing 
better than we were able to do with the Internet, which no one 
could have possibly imagined what it would be now as it was in 
the early 90's to mid-90's. And so it gives us a chance to get 
ahead of the game with the displaced workers too.
    So I am open minded to not only this being a template for 
other AI ideas, but who would participate to help advise 
Congress on these sorts of issues.
    Ms. SHALALA. Exactly. And my only point is that the 
capacity of the Department of Labor to do these things is very 
limited. But their capacity to contract out with a think tank 
or with the National Academy of Sciences to do a report like 
this, even where you interact with business, it seems to me any 
way we can get a non-partisan report is important. But I think 
the goals of both of your reports are really important. It's 
just that both of them are very complicated to do.
    And forgive me for being protective of Federal workers.
    I yield back.
    Chairman SCOTT. The lady yields back. Thank you. Any other 
questions? No questions. I will just recognize myself for 
questions.
    First, Mr. Mitchell, do you know how the information you 
are trying to get differs from what's already on the dashboard 
under present law?
    Mr. MITCHELL. Well absolutely. For example, enrollment 
information and programs is often not accurate because, as 
Congresswoman from Florida understands, that the IPEDS, what's 
called the IPEDS, is less than accurate or clear. It is a 
three-ring circus because it doesn't deal well with, for 
example, institutions that enroll students every month rather 
than by the semester system, start with that. The collection of 
the data is cumbersome for universities, colleges, any 
postsecondary institution. They have different reporting 
requirements depending on the nature of the institutions. You 
do not necessarily get apples to apples comparisons of 
outcomes.
    And I agree that understanding whether or not someone's 
successful in going from a postsecondary to a graduate degree 
program is important information. In my college, a lot of 
students when I went to law school, they were only guessing to 
be able to tell you whether they went on to law school or not 
because the data wasn't there. And that was the significant 
reason for enrolling in that institution. So I think we can go 
through a whole list of data, but I think the important thing 
is you got a fairly comprehensive set of data, it may not be 
everything for everybody, but I assure you it's a whole lot 
more than we have now.
    Chairman SCOTT. Thank you. And, Mr. Soto, once we get the 
information there will be obviously job potential and job loss. 
Does your bill tell us what to do with that information?
    Mr. SOTO. So I would think that's in the purview of this 
committee. And I would think we would want to get this within a 
year so that we would still within this term, be able to 
respond with thoughtful legislation both to help grow 
artificial intelligence industries but also have the work force 
and retraining tools deployed to areas that will be disrupted. 
I am sure everybody in this committee already has their initial 
opinions on where these spaces are. And if we already have all 
the answers, then let's just get started on that. But if we 
feel like we need additional information from experts in an 
official report that then we can rely on, then this is an 
organized way to do it. But it only would be step one.
    Step two would be sometime next year when we get a report 
back, should this committee look favorably on this legislation, 
would be to implement those through real dollars and real 
policy changes in an organized way.
    Chairman SCOTT. Thank you. Are there other questions? There 
don't appear to be any questions. Gentleman from Pennsylvania.
    Mr. MEUSER. Yes. I would just like to thank the witnesses 
for being here, particularly Mr. Mitchell. Do miss you on the 
committee. I know you have done some work on this issue in the 
past. I think it is very important that students, parents are, 
you know, have the information in hand when they are making 
decisions in regards to their child's education. So I look 
forward to continue to work with you on that.
    And, Mr. Soto, we know with AI, with robotics, our work 
force will change dramatically over the next decade or two. I 
just recently visited a robotics company developing robots that 
will work side by side with humans. And they were talking about 
their projections and how many jobs will be displaced by 
robots. It will be a change in the workplace, but will be a 
tremendous opportunity as well. So I do think it is incumbent 
upon us to try to understand those changes and understand how 
we can implement policy that ensures the work force, folks are 
prepared for the jobs that are available tomorrow. So 
appreciate your work in your area a well. Thanks for being 
here.
    Chairman SCOTT. Thank you. Thank you very much. Now we have 
a second panel which Representative Waters has been detained on 
the floor, so she is expected to get here later. But I 
understand the gentleman from Pennsylvania has a statement, and 
he is recognized now.

 STATEMENT OF HON. GLEN THOMPSON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. THOMPSON. Thank you, Chairman. I promise to talk 
slowly, on time, until Ms. Waters gets here.
    Chairman Scott, Republican Leader Smucker, and Members of 
the House Education and Labor committee, good morning. Thank 
you for providing this opportunity for Members to be able to 
bring their priorities before the committee. I have always felt 
that this type of opportunity is extremely important, gives us 
an opportunity to share with our colleagues.
    As a Member of the committee I have served on this capacity 
since first being elected in 2009. And while the majority/
minority have changed hands twice since that time, I have been 
steadfast in my commitment to provide honest input into the 
process. And to share my vision, my goals, and to work toward 
those, and we have done so in a bipartisan way, the things that 
have been important to me that I have advanced.
    And while we don't always agree on every issue, there are 
many areas where we can continue to build consensus, to support 
programs that will improve lives and shape future.
    Primarily among these are areas of consensus is a 
dedication to strengthen the work force and provide Americans 
of all age opportunities to achieve their full life potential.
    So three areas I just want to briefly address.
    First of all is career and technical education. And I want 
to thank this committee for what we have done on career and 
technical education. As Co-Chair of the bipartisan House Career 
and Technical Education Caucus, I strongly support CTE programs 
that provide learners of all ages with career ready skills. 
From agriculture to marketing, manufacturing, CTE programs work 
to develop America's most valuable resource, its people. The 
most valuable resource of any employer. It's not its product, 
service, location, appliance plan, marketing plan, it is 
qualified and trained work force.
    As this committee knows, CTE is taught in a range of 
settings from high schools, area technical centers, 2-year 
community colleges, quite frankly an apprenticeship programs on 
the job. That's a wonderful program, and I think this committee 
has reinforced a vision I have always had as looking for an 
education system. And Current Technical Education does this. It 
has portals an American of any age can enter to at any time, 
get just what they need to make their life better, to get an 
advancement or promotion, a better job, come out of that system 
and go to work. And maybe come back in at a future point.
    In total, 12.5 million high school and college students or 
postsecondary students are enrolled in CTE programs. 
Fortunately, the 115th Congress unanimously passed the first 
major overhaul to Carl D. Perkins Career and Technical Act 
since 2006, Strengthening Career and Technical Education For 
the 21st Century Act. While I was an original sponsor of this 
bill, the process in the bipartisan commitment to doing what is 
right for the American worker, American families, American 
business, prevailed. Now this couldn't have been done without 
many of my colleagues that are part of and who have been a part 
of this committee.
    The bill was signed into law by President Trump on July 
31st, 2018, and it aims to close the skills gap by modernizing 
Federal investment in CTE programs and connecting educators 
with industry stakeholders. What does the country need to 
continue to be vigilant on career and technical education?
    So I would like to suggest to the committee there is a bill 
that's been referred to this committee as of March 7th, 2019, 
it is one that I did with a partner of mine I have worked very 
closely on this issue with, Congressman Jim Langevin, and that 
is the Cyber Security Skills Integration Act, H.R. 1592.
    Cyber security is an incredible emerging issue with every 
industry. And so this creates a pilot program and it continues 
in the spirit to what we have done. It is a partnership between 
employers and education to, you know, to make sure that we are 
providing some models, incentivizing, creation of the 
integration of cyber security skills into career and technical 
education.
    Child nutrition is a second area. I would just ask 
favorable movement and considerations from hearings on H.R. 
1592. Federal child nutrition programs is another area, very 
important. As we all know, low income students and families, 
those living in financial distress, gives them access to 
nutritional meals.
    Unfortunately, the last several years there's been, you 
know, bottom line, it's time to reauthorize that bill. We 
reauthorize to refine, to make improvements where we can, to 
learn from the implementations.
    And so I really encourage we continue as we did in the sub-
committee just this week, to look at moving on reauthorization, 
building toward reauthorization of what was the Healthy Hunger-
Free Kids Act in 2010. You know, one of the areas in particular 
to me is, quite frankly, among the changes, the law mandated 
that flavored milk had to be low fat milk within the program. 
We know that is contrary to all the research that is being 
published now almost universally.
    So the science has caught up.
    That law that we did, along with lower participation as a 
result in the program, led to an alarming decline in milk 
consumption in schools since 2010. And quite frankly, putting 
my agriculture leadership hat on, that loss of a generation of 
milk drinkers as a result has been implicated in the 50 percent 
decline in the rural economy in the past 6 years. Cotton and 
dairy has had a devastating impact on rural America.
    So a chance to look at the science, doing what's right for 
the kids with nutrition, I would just encourage us to take a 
look at that. Obviously the bill in particular is in the 
jurisdiction of this committee, has been introduced, has been 
referred as the Whole Milk for Healthy Kids.
    And finally, the Community Services Block Grant 
reauthorization, which is near and dear to my heart. It traces 
its roots back to this committee more than 50 years ago to the 
Economic Opportunity Act of 1964. The Act established local 
community action agencies to help people identify where people 
were in poverty and how to address it, how to raise people out 
of poverty using public and private partnerships. Virtually 
every county in American has a community action agency. They 
act as a safety net, really as a catalyst for low-income 
individuals and families to be able to raise themselves up out 
of poverty and create opportunities. The Community Services 
Block Grant is the only Federal program with explicit goal of 
reducing poverty regardless of its cause.
    First, this program has not been reauthorized in more than 
20 years. We all know that is unacceptable. That is why just 
this week, I am proud to work with Representative Betty 
McCollum. She and I have just introduced, with strong 
bipartisan co-sponsorships, H.R. 1695, the Community Services 
Block Grant Reauthorization Act of 2019. The bill aims to renew 
the Nation's commitment to reducing poverty through an 
established network of more than 1,000 local community action 
agencies. And it is time for Congress to reauthorize CSBG. We 
have done a great job of reauthorizing laws that have been 
stale and needed to be updated, brought into the 21st Century, 
and it really is time for CSBG.
    Thanks again, Chairman Scott and Republican Leader Smucker 
and Republican Leader Foxx, Members of this committee, for 
allowing me to express my priorities to this committee and the 
116th Congress. Appreciate it. Look forward to continue to work 
with you.
    [The statement of Mr. Thompson follows:]
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman SCOTT. Well thank you. And I thank you for your 
leadership, particularly on CTE over the years.
    Do you have any questions at this time?
    Ms. Waters is apparently on her way, so why don't we 
briefly recess until she gets here. Without objection.
    [Recess]
    Chairman SCOTT. The committee will reconvene. We were 
informed that the conflict on the floor, that's understandable, 
you can't be in more than one place at the same time. And we 
are delighted to have Ms. Waters with us today. And you are 
recognized for 5 minutes.
    Ms. WATERS. Thank you very much. Chairman Scott and Ranking 
Member Foxx, thank you for scheduling this hearing. While this 
committee has jurisdiction over numerous issues of importance 
to my district, I will today focus on two, student loan 
forgiveness and the for-profit college industry.
    I testify before you today as someone who has long 
advocated for a public education system that is accessible, 
affordable, and equitable.
    Young people are sold on a simple version of the system in 
which students of any color and economic background attend 
class in a room furnished with every necessary educational 
resource and tool, receive quality instruction from a dedicated 
and well-compensated teacher, work hard, and learn the skills 
and knowledge necessary to obtain gainful employment after 
graduation.
    This is the dream of millennials and young people, and this 
is a dream that they were sold, I now fear they were not told 
the truth. The ability to pay one's way through college, once a 
hallmark of the self-sufficient, hard-working student, is now 
an unattainable myth. The price of college has increased nearly 
400 percent over the last three decades, and rising tuition 
leads to a dramatic and corresponding increase in student loan 
debt, which now totals about $1.5 trillion. This is 500 billion 
more than the Nation's credit card debt. Perhaps if students 
were able to procure a job within their field of study, then 
such financial burdens would be worth the sacrifice.
    For thousands of young people, including most especially 
those who attended a for-profit college, the notion of 
obtaining employment after graduation is yet another broken 
promise. Millennials were promised jobs, careers, and the 
ability to provide themselves and their families. They were not 
told the truth. And Congress now has a responsibility to 
address two of the primary reasons these promises never 
materialized, student loan debt and the for-profit college 
industry's fraudulent practices.
    I urge the committee to protect and expand student loan 
forgiveness programs such as the Public Service Loan 
Forgiveness Program and forgiveness tied to borrower 
participation in income-based repayment plans.
    Statistic regarding millennial student loan debt show a 
clear and present crisis. The average millennial with student 
debt has 75 percent less net worth than those who are debt 
free, and 46 percent less in their savings and checking 
accounts.
    The average debt load per borrower, adjusted for inflation, 
has increased 30 percent since 2001.
    Over one-third of millennials say they have delayed 
purchasing a home because of student loan debt. Thirty percent 
say they cannot yet afford to save for retirement, and 16 
percent have put off having children. This debt is not 
distributed equitably either. Those from the poorest 
communities statistically take on the most debt, and women hold 
about two-thirds of all student loan debt.
    Forgiving all student debt owed by the Federal Government 
would increase the gross domestic product by at least $86 
billion per year and add a minimum 1.2 million jobs.
    Congress must boldly attack the student debt crisis by 
protecting loan forgiveness programs.
    For-profit colleges greatly contribute to the student debt 
crisis. This industry continues to receive Federal funds 
despite destroying or disrupting the lives of millions of 
Americans. And I personally witness the effects of their abuse 
in my own district.
    In 1992, legislation I introduced limited the number of 
Federal funds for-profit colleges could receive to 85 percent 
of their total revenue, leaving 15 percent of their profits to 
be raised either through other non-Federal means. This law was 
later amended to the current 90/10 rule.
    In 2011, I first proposed closing a loophole which 
categorizes Veterans' education benefits as a non-Federal 
source of funding. This loophole allows for-profit college 
industry to enroll Veterans for the GI benefits and tuition 
assistance without counting against the cap limiting the amount 
of revenue they may receive from Federal funding to 90 percent. 
I will soon introduce legislation that will both restore the 
original 85/15 rule and count Veterans' education benefits as 
Federal funds. Both changes are long overdue. So I urge the 
committee to incorporate both policies into the Higher 
Education Act.
    In conclusion, I thank you for the opportunity to testify, 
and I yield back the balance of my time.
    [The statement of Ms. Waters follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman SCOTT. Thank you. Gentleman from Pennsylvania, do 
you have any questions?
    The two proposals that you've made, from the 85/15 and 
closing the Veterans' loopholes, the two things that we're 
strongly considering, so we appreciate your testimony on those 
two issues.
    So are there any other ways that we can ensure that the 
for-profits are actually delivering a quality product?
    Ms. WATERS. Mr. Chairman, I do believe that we need to 
scrutinize more carefully and more closely all of these for-
profit colleges. As you know, you have and I have and we have 
worked to make sure that some of them are no longer able to 
operate because of the abuses that we saw and what we learned 
about young people who had great expectations who attended some 
of these for-profit colleges, only to discover that in the 
first place many of them did not have qualified teachers, many 
of them could not keep the promises that they had made for 
giving them a quality education, and they were not able to get 
a job once they had gone through. Or, some of them literally 
closed in the middle of the education that the students were 
supposed to be obtaining and left them stranded. And I think we 
have some situations like that now that we have to pay 
attention to. So I would just suggest that we have got to be 
tougher.
    Chairman SCOTT. The ones that collapsed in mid-stream, for 
those, there is one problem. The students have incurred the 
debt and the question is whether they need to repay the debt to 
the school that collapsed right in the middle of their 
education.
    There's a borrower's defense, this administration is trying 
to roll that back and make it more difficult for students to 
access borrower's defense. We need to make sure that's stronger 
too, because if it collapses mid-stream, not only have you 
wasted all your time, but there is no excuse to make you pay 
student debt for something you didn't even get. So we need to 
strengthen the borrower's defense.
    On the student loans, the forgiveness programs, 
unfortunately have been zeroed out by the administration. We're 
going to make sure they get restored in our budget. The income 
based repayment and the Public Service Loan Forgiveness and 
other forgiveness programs need to be there.
    There's one that teachers, if you sign up you can get a 
good education, get a grant, conditioned on you teaching in low 
income areas for 5 years. People coming to the end of the 5 
years, and there's an unfortunate denial of their grant. They 
said this is to inform you that your grant is now a loan, pay 
back the money. And we're working to make sure that the 
teachers who have fulfilled their responsibilities get their 
benefit.
    I appreciate your testimony, these are two areas that we 
really need to be looking into student debt and then the abuses 
in the for profit. There are some good ones, and our 
responsibility is to separate the good from the bad. And the 
Veterans' loophole and 85/15 will not adversely affect those 
that are doing a good job. Those that are not doing a good job 
will be fearful.
    Ms. WATERS. Thank you so very much, Mr. Chairman. I 
appreciate your leadership and all of the wonderful work that 
you have done for all of Americans on education. And I am 
hopeful that Ms. Devos will learn a lot about the for-profit 
industry and correct some of the mistakes that she's made. I am 
not going to consider her an absolute enemy, I am going to 
consider that she just doesn't know any better at this time.
    Thank you very much.
    Chairman SCOTT. Thank you. Are there other comments? Thank 
you very much. And I am delighted we could work with the floor 
schedule, this is very important testimony.
    I want to thank our witnesses for their participation 
today. The input of our colleagues is paramount to what we can 
accomplish during this Congress.
    As the Ranking Acting Ranking Member, you have any other 
comments? If not, there's no further business.
    Without objection, the committee stands adjourned.


    [Additional submission by Mr. Espaillat follows:]
  
  
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    [Additional submission by Mr. Evans follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional submission by Ms. Maloney follows:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    [Whereupon, at 9:44 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
